     Actions Taken by the Federal Emergency 

      Management Agency in Response to an 

     Allegation Concerning the Application for 

      a Station Construction Grant Submitted 

          by the University City, Missouri, 

                  Fire Department 





OIG-11-52                1
                                     March 2011
Background
The U.S. Department of Homeland Security, Office of Inspector General, reviewed
actions taken by the Federal Emergency Management Agency (FEMA) to address
allegations that the application for a Station Construction Grant (SCG) submitted by the
University City, Missouri, Fire Department contained unsupported and inaccurate
information. The principal allegation was that the fire department’s representation of the
fire station as structurally unsound was not supported.

The American Recovery and Reinvestment Act of 2009 (Recovery Act) appropriated
$210 million to FEMA for competitive grants for “modifying, upgrading, or constructing
non-Federal fire stations.” In determining awards, FEMA guidance says that the highest
priority will be assigned to projects to replace unsafe or uninhabitable structures and to
expand fire protection coverage to meet increased service demand. FEMA received and
ranked approximately 6,000 grant applications, performed peer reviews of about 1,200
applications that it determined were in the competitive range, and awarded 119 grants
totaling $207 million.

FEMA granted $2.6 million to the University City Fire Department for construction of a
new fire station. The fire department’s grant application said that its station “is damaged
from years of water intrusion in the basement, foundation, and roof,” has “extensive mold
and mildew,” and is unsafe and uninhabitable because it is structurally unsound.

Results of Review
FEMA took appropriate actions to evaluate the allegations concerning the University City
application for an SCG. Specifically, FEMA suspended the grant, reviewed the issues
with its technical subject matter experts and University City officials, obtained additional
documentation from the city in support of the statements made in the grant application,
and hired an engineer to inspect the fire station.

The engineer inspected the fire station on December 15, 2010. According to the
engineer’s report, the purpose of the site visit was to:

   1.	 Compare onsite firehouse conditions with the list of conditions identified in the
       grant application to ascertain whether the grantee had misrepresented facts in
       applying for the grant; and
   2.	 Compare the allegations with the onsite firehouse conditions in order to confirm
       or refute each claim.

The engineer’s report said that “each material statement found in the application and
complainant allegation was individually investigated and judged on its own merits
relative to SCG Program Guidance and observed site conditions.” Also, the engineer
reported that “where visual observation alone could not corroborate or refute a statement,
professional judgment and elicited response from the grantee was used in forming my
opinion.” In forming his recommendation, the engineer said that “while I did find minor


                                          Page 2
mistakes in the application . . . none of the applicant’s answers could be seen as
egregious, evasive or purposefully misleading.” Finally, the engineer recommended that
“the Station Construction Grant awarded to the City of University City, Missouri Fire
Department remain intact.”

Based on actions that FEMA took to examine the allegations, we consider this matter
closed, and a response to this report is not required.




                                        Page 3
Appendix A
Purpose, Scope, and Methodology

We conducted this review to determine whether FEMA took appropriate actions in
response to an allegation that the University City, Missouri, Fire Department’s
application for a Station Construction Grant contained unsupported and misleading
information.

To accomplish our objective, we—

   •	 Interviewed the complainant to obtain a better understanding of the allegation,
   •	 Obtained supporting documentation from the complainant,
   •	 Interviewed FEMA officials to obtain an understanding of their work related to
      the allegations and acquired and analyzed relative supporting documentation,
   •	 Accompanied the engineer hired by FEMA on the site inspection of the
      University City fire station and on the inspection of the proposed location for the
      new fire station, and
   •	 Reviewed engineer’s report on the results of the inspection.

We performed this review between September 2010 and January 2011 in Washington,
DC, and University City, Missouri. We conducted our review in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency, currently known as the Council of Inspectors General on Integrity and
Efficiency.

We appreciate the assistance provided to us during our review by officials from FEMA
and from University City.




                                         Page 4
Appendix B
Major Contributors to This Report


                   Roger LaRouche, Director
                   Pamela Weatherly, Lead Program Analyst
                   Jason Kim, Auditor




                                    Page 5
Appendix C
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Departmental Coordinator, American Recovery and
                         Reinvestment Act

                      Federal Emergency Management Agency

                      Assistant Administrator, Grants Programs,
                        Federal Emergency Management Agency Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                         Page 6
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
